r.
Supreme Court, U.S.
FILED

•r

c:c 1 ^ 2223
1

No.

Supreme Court of the United States

Marilynn Thomason
Petitioner, pro-se
v.

Beneficial Financial I, Inc.
Respondent.

On Petition for a Writ of Certiorari
To the Supreme Court of the United States
From the Idaho Supreme Court, No. 46509-2018

AMENDED PETITION FOR A WRIT OF
CERTIORARI
From a Civil Action

Marilynn Thomason
Mailing Address:
2184 Channing Way, Box 251
Idaho Falls, Idaho 83404
208-419-5638
Physical Address, mail service not available
7276 W. 3200 S.
Rexburg, Idaho 83440

OFFICE OF THE CLERK

2

QUESTIONS PRESENTED
Petitioner’s request for a Writ of Certiorari
comes from a dismissal of an appeal, before briefing
could be properly completed and through the direct
acts of the Chief Justice of the Idaho Supreme Court
refusal to recuse, with cause for illegal acts and bias
towards Petitioner, culminated in his direct act to
ignore its own rules of appeal, thereby facilitating in
directly causing the lower court’s refusal to provide
timely requested and paid for court records and
indexes.
The questions presented are;
Whether any State Supreme Court, state
appellate court, state district court and/or any clerk of
such court has the constitutional and statutory
authority to arbitrarily deny a party their legal rights
to a full and complete disclosure of timely requested
and paid for court records pertinent to an appeal that
directly and deliberately prevents and denies a party
from being able to complete its briefings and denying
a party the ability to submit a brief with the required
citations to lower court filing indexes?

3

PARTIES TO THE PROCEEDINGS
Original Plaintiff:
BENEFICIAL FINANCIAL I Inc.
Appellant:
MARILYNN THOMASON, unserved, named
defendant
Claimed named Defendants:
The Unknown Heirs, Assigns and Devisees of
BYRON T,
MADISON COUNTY, IDAHO,
JOHN BAGLEY,
TERRENCE BAGLEY,
BEARD ST. CLAIR GAFFNEY PA,
GREG V. THOMASON,
DIANA THOMASON,
W. BRENT EAMES,
LIBERTY PARK IRRIGATIONS CO (*),
RIGBY, ANDRUS & RIGBY CHARTERED,
ABUNDANT LAND HOLDINGS, LLC,
THOMAS C. LUTHY,
LAURA B. LUTHY,
FORSBERG LAW OFFICES, CHTD,
R. SAM HOPKINS,
DOES 1-20.
(*)Liberty Park Irrigation Co. appeared in the lower
action only to request to be dismissed via a
stipulation. No other party appeared in the lower
action or appeal.

p

4

RELATED PROCEEDINGS
Madison County, Idaho 7th District Civil Court No.
CV-2018-74.
TABLE OF CONTENTS
Cover Page ..............................................
1
Questions Presented
......................
2
Parties to the Proceedings
..........
3
Related Proceedings
......................
4
Table of Contents ..................................
4
Constitutional Authority ......................
5
28 USC §1251
......................
5,7
28 USC §1651
......................
5,7
18 USC § 1956
......................
5,7
Constitutional Provisions.....................
5
Equal Protection Clause ..........
5,7-9, 14
Due Process Clause.....................
5,7-9, 14
Miscellaneous Authorities.....................
5
Idaho Appellate Rule 28.............
5-10,13-15
Opinions Below
..................................
6
Statement of Jurisdiction......................
6
Statement ..............................................
7
Reason for Granting Petition
..........
14
Conclusion ..............................................
15
Affidavit /Service ..................................
16-17
Appendix A Appellant Brief Due..........
18
Appendix B Transmittal of Document
20
Appendix C Appellant Brief Due..........
23
Appendix D Transmittal of Document
26
Appendix E Order Denying Motions....
31
Appendix FI Order Denying and Dismissal..
34
Appendix F4 Order Denying Reconsideration.. 36:2-3
Appendix G Appellant Supporting Brief...
37
Appendix H Idaho Appellate Rule 28.......
54

?

5

CONSTITUTIONAL PROVISION INVOLVED
United States Constitution First Amendment
ensures all are protected from being denied their
rights to have grievances addressed against the
Governments of the United States and United States
Constitution
Fourteenth
Amendment,
Equal
Protection Clause and Due Process Clause further
guarantees all shall be treated equally in the
administration of those rights, laws and rules, free
from arbitrary application of the laws and rules
within the United State and when such acts occur no
party shall be charged nor denied of any legal rights
without full due process under the laws.
Constitutional Authority and Provisions
Appellant’s Writ of Certiorari rests on
guarantees rights allowed all for redress of
deprivation of Constitutional Rights under the US
Constitution 1st Amendment and the 14th Amendment
Equal Protection and Due Process Clauses.
There are no Constitutional Authorities that
can be cited for the Idaho Supreme Court did not
issue any orders supported by any authority.
Miscellaneous Authorities
Appellant’s Writ of Certiorari also is supported
on 28 USC §§1251; 1651 [All Writs Act] and 1956
[Money Laundering]; the United States Constitution,
First Amendment [“...petition of redress...”], as well
as, under issues for review of direct violations of such
guaranteed rights under the 14th Amendment — Due
Process Rights, Bill of Rights, violations under US
Constitution Article VI, Clause 2 and federal statute
violations directly involving and facilitating in money

6

laundering activity under 18 USC § 1956(a), (a)(l)
and (s)(2), P.L. 99-570), in aliis exitihus.
OPINIONS BELOW
All orders from the Idaho Supreme Court are
provided herein, in full. (App.,infra A through F,
pages 18-36).
At no time had the Idaho Supreme Court (ISC)
issued any opinion, memorandum or citation of
authority as to the reasoning or logic behind (ISC)’s
final orders to dismiss and deny reconsideration:
Including (ISC)’s denials of Petitioner’s Motion to
Recuse for Cause! Motion to Compel Service of
District Court’s Record of Actions as required under
Idaho Appellate Rules 28, inter alia/ Nor has the
(ISC)’s clerk provided required docket number
references upon documents served upon Petitioner
(App.,infra A through F); Also, the (ISC) clerk’s
refusal to provide to Petitioner the requested certified
Appeal’s Record of Action (AROA) that identifies each
filing made during the 25 plus month appeal process,
with filing captions and/or docket numbers, so
Petitioner could direct the Supreme Court of the
United States (SCOTUS) to during this Petition for
Writ of Certiorari;
STATEMENT of JURISDICTION
Order denying Petitioner’s Motion for
Reconsideration (App. F4_5, pp. 36:2_3) to (ISC)’s
‘Dismissal of Appeal’ was issued on July 23, 2020.
Under COVID-19 Guidance Order dated April
15th, 2020, No, 589 U.S. the filing of Petition for Writ
of Certiorari was extended from 90 days to 150 days
from date of Denial of Reconsideration.

7

Supreme Court of the United States [SCOTUS]
has original jurisdiction in this matter under Article
III, sections I and II of the Constitution of the United
States; 28 USC §§1251; 1651 [All Writs Act] and 1956
[Money Laundering]; the United States Constitution,
First Amendment [“...petition of redress...”], as well
as, under issues for review of direct violations of such
guaranteed rights under the 14th Amendment - Due
Process Rights, Bill of Rights, violations under US
Constitution Article VI, Clause 2 and federal statute
violations directly involving and facillating money
laundering activity under 18 USC § 1956(a), (a)(l)
and (s)(2), P.L. 99'570), in aliis exitibus.
STATEMENT
The Idaho Supreme Court issued dismissal of
appeal in violations of its own well established
statutes and rules pertaining to how lower and higher
court clerks are to prepare hard copy Records of
Actions (ROA), the required indexes to each record for
the purpose of ensuring documents are cited correctly
in briefings and that all such ROA’s are duly certified,
which did not occur in the appellate action 465092018.
Petitioner’s request for a Writ of Certiorari is
one of great public interest and concern rising from
precedential direct actions before the Idaho Supreme
Court has begun, that will have national significance
in each state and territory, where court filings by
petitioner evidenced who, when, how and where
repeated acts of money laundering via illegal court
proceeding laundered real and personal property
deeds and titles to alleged plaintiffs without threshold
standing or court personal or subject matter
jurisdiction for personal friends and political
contributors of the district court’s sitting judge.

8

Judicial acts of falsifying court records, acting
without personal and subject matter jurisdiction,
denying petitioner access and service of properly and
duly requested and paid for appeal court exhibits with
required document indexes that directly and ultimate
facilitated in a money laundering scheme within the
United States of America for and in behalf of foreign
countries, businesses and foreign individuals. These
acts, via lower court proceeding culminate in
petitioner being requested by US'DOJ to file a
criminal complaint with evidence to the Idaho
Attorney General’s office and the United States
Attorney General - DOJ and FBI, et aliis, in which
the Idaho 7th District sitting judge retaliated against
petitioner by illegally and wrongfully filing a
vexatious action against petitioner, without cause or
due process in failing to follow’s established rules on
vexatious
litigant procedures
(Idaho
Court
A dministra tive R ules,
(I.C.A.R. 59).
Also,
deliberately denying petitioner proper and legal due
process and equal protection under the United States
and Idaho’s Constitution 14th Amendment, Statutes
and Rules denying Petitioner to go forward with an
appeal by further denying petitioner timely access to
court records and indexes which are essential to the
completion of opening and further briefing in the ,
appeal process.
The Petition for a Writ of Certiorari comes from
the Idaho Supreme Court’s arbitrary application of its
own appeal rules, including I.A.R. 28 (App. H) and its
bias and arbitrary dismissal of petitioner’s appeal
before the Idaho Supreme Court as a direct result of
the 7th Judicial District of the State of Idaho’s court
inability to reconstruct a true and correct court docket
(records) in its district court action CV-2015-74
(Action), which the Idaho Supreme Court Clerk

9

evidenced on December 19, 2019 the lower court clerk
only filed with the Idaho Supreme Court claimed
court orders within the ACTION, but refused to file
any supporting requested and paid for exhibits
requested at the time of filing each appeal by
Marilynn Thomason (THOMASON) or any required
indexing as required under Idaho Appellate Rules
(I.A.R. 28 (a, b(l),(3)) (App. H) after (THOMASON)
evidenced within the Action, court officers refused to
produce or grant to (THOMASON) her timely
requested and needed hearing transcripts, as well as,
evidencing court officers were removing filings, after
the fact and without due process, from the court’s
docket and non-served documents were being added
into the court docket in direct violation of Equal
Protection and Due Process guaranteed under the
United States 14th Amendment, directly affecting and
denying (THOMASON) of being guaranteed any true
or just redress of the wrongs being done to
(THOMASON)’s legal rights, under the First and
Fourteenth Amendments of the United States
Constitution.
On December 30, 2019 a timely request by
(THOMASON) objecting to the lower court’s required
R.O.A. which lacked the lower court’s required
indexing to each exhibit and its lack of certification
evidencing the ROA was in direct violation of I.A.R.
28 (App. H pages 54-59).
On December 9, 2019 District Court Clerk took
(THOMSON)’s timely payment for clerk’s claimed
requested completed court records, at which time the
clerk (Angie Wood) informed (THOMASON) that
“...hopefully within 30 to 45 minutes (Angie Wood)
would be able to hand deliver the records to
(THOMASON), which (THOMASON) was not able to
wait for, so requested (Angie Wood) to mail the

10

records to the required address. When (Angie Wood)’s
mailing arrived it caused (THOMASON) to file a
timely Objection to the records delivered for not being
in compliance to I.A.R. 28
(THOMASON)’s Objection hearing date for
February 2020, upon Clerk’s calendar openings.
(THOMASON)’s Objection Hearing was rescheduled
at the request of the District Court Clerk (Angie
Wood) only to have (THOMASON)’s Objection
Hearing indefinitely postponed by the 7th Judicial
District Court due to COVID-19 lock downs of all
Court Civil Proceedings in Idaho.
(THOMASON) filed a motion to compel with
the Idaho Supreme Court (I.S.C.) to have a court order
requiring the lower court clerk to prepare the
requested and paid for R.O.A and its required indexes
and certifications, to conform to Idaho Appellate
Rules I.A.R. 28 (APP.H).
On April 21, 2020 (APP. D, pt. no. 2) the Idaho
Supreme Court deny all (THOMASON)’s motions,
which directly resulted in (THOMASON) being
denied the right to a fair, just and bias free appeal
process and directly violating (THOMASON)
Constitutional Rights under the First Amendment’s
right to (“... petition the Government for redress of
grievances...) and Fourteenth Amendment-Equal
Protection Clause and Due Process, which only
expanded the violations to (THOMASON)’s rights to
Due Process and Equal Protection that occurred in
the lower court action^
On February 12, 2015, (THOMASON), was a
named party in a lower court action (CV-2015'74), but
was never served any summons, complaint or alleged
supporting exhibits, at any time during its five (5)
plus years of litigation;

11

Upon evidencing in the court an amended
certificate of service was fraudulent and no timely or
duly service was ever made upon (THOMASON),
(THOMASON) only made appearances in the lower
court action to place the court on notice that plaintiff,
Beneficial Financial I Inc., (Beneficial) did not have
any threshold standing; Did not hold any chain of
title or possession of any mortgage nor any note; The
court lacked all subject matter and personal
jurisdiction; All claimed debt, due and owning, was
paid in full more than five (5) years before action was
commenced; (BeneficiaD’s action was barred by
Idaho’s five (5) years statutes of limitation;
(Beneficial)’s action against the sole note signer was
barred by Idaho testate statutes of limitation; Idaho
lower District Judge Gregory Moeller (MOELLER)
refused to recuse, for cause, when evidenced
(MOELLER) was laundering real and personal
property deeds and titles to his personal friend and
supporters, including one (William Forsberg) and
known drug cartels in the United States through
(MOELLER)’s position as a lower District Judge and
through his former law firm and law partners!
Evidenced in the court records that (MOELLER) not
only threaten (THOMASON) that if she did not go
along with a plan to launder real property deeds and
watershare certificates through (MOELLER)’s
orders, including those by Idaho’s Justice Burdick and
Appellate Judge’s support under the Idaho Judicial
system, (THOMASON) would pay.
(THOMASON) evidenced in the court records
that in fact (MOELLER) followed through with his
direct threat against (THOMASON);
Evidenced
(Beneficial)’s legal counsel (STODDARD) had been
filing pleadings and documents with the court that
were not what (STODDARD) was mailing to

12

(THOMASON), including evidence that (MOELLER)
was instructing (STODDARD) on what (STODDARD)
was to create and file with the court, including the one
and only alleged accounting of any claimed debt
owning, in which (STODDARD) witnessed upon the
evidenced that (STODDARD) in fact self-created the
alleged accounting from his personal acts to create the
accounting 14 plus years after alleged events occurred
and before (STODDARD) became knowledgeable of
any proceedings and becoming a legal counsel for
(Beneficial);
The first appeal was filed on September 27,
2018 after (THOMASON) evidenced the direct fraud
upon the court in the lower court action noted above
in which (MOELLER) instructed (STODDARD) to
prepare a vexatious motion and order to have
(THOMASON) deemed a vexatious litigant, as
(MOELLER)’s
act
of
retaliation
against
(THOMASON) for not going along with the deal to
launder money/deeds via (MOELLER)’s court
decisions and for reporting the illegal activity to the
Idaho Attorney General and the US-Attorney
General, DOJ and FBI;
Three
months
later,
January
2019
(MOELLER) was made the new Justice for the Idaho
Supreme Court;
The second appeal (first amendment to the first
appeal) occurred on June 17, 2019);
(THOMASON)’s motion was filed for recusal
July 29, 2019 of two Justices and one Appellate Judge
which was solely addressed by the court clerk without
any Jus;
The third appeal (second amendment to the
first appeal) occurred on July 26, 2019);
The fourth appeal (third amendment to the
first appeal) occurred on September 3, 2019);

13

The fifth appeal (fourth amendment to the first
appeal) occurred on November 8, 2019), with each
appeal filed by (THOMASON) specifically detailing
the exact documents that are to be included in the
lower district court’s Certified Record of Action
(CROA) and paying the clerk’s demanded fees for the
recreation of the court’s docket with indexes;
The lower district court had been ordered to
prepare the (CROA) on November 26, 2018 with a due
date of January 28, 2019;
On February 26, 2019 the (CROA) had not been
served nor filed and the (CROA) due date was reset
for March 26, 2019 and not (CROA) that conformed
with I.A.R. 28 (App. H) was ever delivered or served
upon (THOMASON);
On December 19, 2019 the lower court only
sent to the Idaho Supreme Court the lower court
orders, but did not provide any requested/paid for
exhibits.
On December 30, 2019 (THOMASON) filed an
first objection to the clerk’s second (ROA) which was
also not a certified record of the court dockets nor did
it comply with Idaho Supreme Court’s Rules (I.A.R.
28 (App H) with a Notice of Hearing set in the lower
court that was rescheduled at the court clerk’s request
only then to have COVID-19 hit and the Idaho Courts
closed, and as of this filing, the lower court’s clerk had
never rescheduled (THOMASON)’s hearing on the
Objection Motion;
(THOMASON) filed a motion with the Idaho
Supreme Court to grant a court order to comply the
lower court clerk to correct the court’s ROA and
include the required index per I.A.R. 28 (App. H) so
(THOMASON) could complete her opening brief with
the required citation to the ROA’s indexes.

14

On June 3, 2020 (APP. E.2) the Idaho Supreme
Court denied relief to have the lower court’s ROA and
Indexes to be completed in accordance to I.A.R. 28
(App. H) directly preventing (THOMASON) from
including the Idaho Supreme Court’s required direct
citations to the lower court’s indexes, detailing page
number references, as well as, denying all
(THOMASON)’s motions, including for recusal;
This Petition for Writ of Certiorari comes after
Idaho Supreme Court refused to ensure the lower
court timely and duly prepared the required court
records with required indexing of the documents,
deliberately
impeding
(THOMASON)
from
completing her required opening brief, in direct
arbitrary acts by the Idaho Supreme Court Justices to
violate (THOMASON)’s 14th Amendment Rights of
Equal Protection, including rights of Due Process and
in direct violations to their I.A.R. 28 requirements
REASON FOR GRANTING THE PETITION
The legal issues to be presented and addressed
in the requested Writ of Certiorari are of great
matters of public concern and interest to any and all
litigants, their legal counsels and any person or
business within the United States or any of her
Territories that hold title to any real or personal
property, which will ultimately create chaos within
business, real property and patient rights within the
United States if the Supreme Court of the United
States does not address these issues directly, opening
the United States to physical territorial takeovers of
United States businesses, real and personal property,
including patent and intellectual property.
Therefore, the granting of a Writ of Certiorari
is necessary to resolve the conflicts being currently
enforced in the Great State of Idaho in the procedural

15

requirements within any appeal and the abolishment
of facilitating money and property laundering
through state’s lower and appellate court proceedings
that ultimately require denying persons of their Due
Process and Equal Protection Rights under their
respectful state’s and the United States’ Constitution
and Statutes. Failing to have the Supreme Court of
the United States to ensure Petitioner is not being
denied fair and equal treatment under Idaho laws and
rules by the Justices of the Idaho Supreme Court, it
is imperative a review is had and Petitioner is granted
the legal rights to have disclosure and immediate
access to the required Idaho Court Records under
I.A.R. 28, and without the Supreme Court of the
United States immediate intervention and review,
Petitioner’s rights, as well as, tights of other future
litigants will be denied and justice will not be served.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully Submittdtharilynn Thmnason, pro-se

-2.

iTr

December 14, 2020
$300 fee enclosed
I, Marilynn Thomason, under penalty of law,
declare I have filed and served this Amended filing on
February 16, 2021, perSdOTUS order.

vf ^rv\^OiZ^—
Mamynn Thomason, pro-se

